No.

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL HAGAR - PETITIONER
VS.
UNITED STATES OF AMERICA - RESPONDENT
PROOF OF SERVICE
I, Michael Hagar, do swear or declare that on this date,
October 29, 2020, as required by Supreme Court Rule 29 I have
served the enlosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that party's counsel, and on every
other person required to be served by depositing an envelope
containing the above documents in the United States mail
properly addressed to each of them and with first-class
postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530-0001
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on October 29, 2020

■piicAtJ A
RECEIVED
NOV 1 6 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

/

*

i

I Michael Hagar did place in the FCC Beaumont Low "inmate mail"
system the original PETITION FOR WRIT OF CERTIORARI, APPENDIX
DOCUMENTS and the MOTION TO PROCEED IN FORMA PAUPERIS and the
PROOF OF SERVICE ON October 29, 2020.
In accordancewith 28 U.S.C. § 1746:
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on October 29, 2020

Signature

